            OFFICE OF
     THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



 INDIVIDUAL REPRESENTATIVE PAYEES
      FOR THE SOCIAL SECURITY
       ADMINISTRATION IN THE
          CHICAGO REGION

   April 2005       A-05-05-15052




   EVALUATION
     REPORT




                .
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                         SOCIAL SECURITY
MEMORANDUM

Date:   April 22, 2005                                                                   Refer To:

To:     James F. Martin
        Regional Commissioner
         Chicago

From:   Inspector General

Subject: Individual Representative Payees for the Social Security Administration in the Chicago
        Region (A-05-05-15052)


        OBJECTIVE
        Our objective was to confirm that beneficiaries in the care of the representative payees
        existed; and, through personal observation and interviews, to determine whether the
        beneficiaries’ food, clothing and shelter needs were being met.

        BACKGROUND
        Some individuals cannot manage or direct the management of their finances because of
        their youth or mental and/or physical impairments. Congress granted the Social
        Security Administration (SSA) the authority to appoint representative payees to receive
        and manage these beneficiaries’ benefit payments.1 A representative payee may be an
        individual or an organization. SSA selects representative payees for Old-Age, Survivors
        and Disability Insurance beneficiaries and Supplemental Security Income recipients
        when representative payments would serve the individual’s interests.

        SSA’s primary concern is to select the payee who will best serve the beneficiary’s
        interests; and preference is normally given to the beneficiary’s parent, legal guardian,
        spouse or other relative.2 SSA considers payments to a representative payee to have




        1
         The Social Security Act §§ 205(j)(1)(A) and 1631(a)(2)(A)(ii), 42 U.S.C §§ 405(j)(1)(A) and
        1383(a)(2)(A)(ii).
        2
            20 C.F.R. §§ 404.2021 and 416.621.
Page 2 – James F. Martin


been used for the beneficiary’s benefit if they were spent on the beneficiary’s current
maintenance—which includes the costs incurred in “…obtaining food, shelter, clothing,
medical care, and personal comfort items.”3

We conducted a nation-wide review of individual representative payees serving 14 or
fewer beneficiaries (see Appendix A for details). There are approximately 4.3 million of
these types of representative payees who serve approximately 5.5 million beneficiaries.
To provide statistically valid nation-wide projections, we selected 275 individual
representative payees for review, of which 39 were in the Chicago Region.4 These
39 representative payees received and managed approximately $31,322 in monthly
benefits for 49 beneficiaries.

RESULTS OF REVIEW
We confirmed the existence of the 49 beneficiaries in the care of the 39 representative
payees in the Chicago Region; and, through personal observation and interviews, we
found the beneficiaries' food, clothing and shelter needs were being met.5 For these
individuals, nothing came to our attention that would lead us to believe the
representative payees did not use the Social Security benefits received for the
beneficiaries’ needs. Furthermore, our contact with the payees provided the local SSA
staff the opportunity to address other issues facing the payees and beneficiaries. Below
is information related to our representative payee site visits.

•     Because of an incorrect telephone number, we were initially unable to contact an
      individual in Cincinnati, Ohio, who served as representative payee for her 17-year-
      old son. SSA sent the representative payee a letter asking her to contact the
      Cincinnati North Field Office (FO). The representative payee’s brother contacted the
      FO and stated the representative payee had Multiple Sclerosis and some memory
      loss. He also stated he was assisting with the beneficiary’s care.

      We interviewed the representative payee and the beneficiary. Based on our
      observations, we believe the beneficiary's needs were being met even though the
      representative payee was experiencing health-related problems. A representative



3
    20 C.F.R. §§ 404.2040(a) and 416.640(a).
4
  Of the original 44 representative payee cases selected for review in the Chicago Region, 1 was
transferred to our Atlanta office for review because the representative payee had moved to North
Carolina. In addition, three cases were removed from our review because the individual was no longer
serving as a representative payee, and one case was removed from our review because SSA’s
Representative Payee System incorrectly reflected the case as an individual representative payee instead
of an organizational representative payee.
5
  Of the 39 representative payees, 15 were the beneficiaries’ mothers, 7 were the beneficiaries’ fathers or
stepfathers, 3 were the beneficiaries’ spouses, 5 were the beneficiaries’ children, 6 were relatives
(grandparent, brother), and 3 were friends of the beneficiaries.
Page 3 – James F. Martin


    from the Cincinnati North FO interviewed the representative payee and the
    beneficiary and decided the beneficiary, who turned 18 in December 2004, was
    capable of managing his own SSA benefits.

•   Accompanied by an SSA FO employee, we visited a woman in Fenton, Michigan.
    The woman served as representative payee for her 15-year-old daughter, who was
    receiving Title II survivor benefits. During our interview, the FO employee answered
    the representative payee’s questions on the proper use of SSA benefits. The
    representative payee expressed gratitude for the information the FO employee
    provided.

•   We met with a man in Washington, Indiana, who served as representative payee for
    his wife, daughter and stepson. During the interview, the representative payee
    expressed appreciation for the support he receives from the Vincennes FO to
    complete the annual representative payee accounting report.

Our other 36 representative payee interviews occurred without any problems identified.
In addition, the beneficiaries’ needs appeared to have been met by the representative
payees in all cases.

CONCLUSIONS
We determined that all 49 beneficiaries existed and were in the care of their
representative payees. In addition, based on our observations, the beneficiaries’ food,
clothing and shelter needs appeared to be met. Furthermore, our contact with the
payees provided the local SSA staff the opportunity to address other issues facing the
payees and beneficiaries, thus contributing to SSA’s goal for delivering high quality,
citizen-centered service.

AGENCY COMMENTS
The Chicago Regional Office informed us that it agreed with the results of our review
and did not have any comments.




                                             S
                                            Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Scope and Methodology

APPENDIX B – Sampling Methodology

APPENDIX C – OIG Contacts and Staff Acknowledgments
                                                                                  Appendix A

Scope and Methodology
Our population included all individual representative payees in the contiguous 48 States
serving 14 or fewer beneficiaries as of May 20, 2004. To accomplish our objective, we:

•   Reviewed the Social Security Administration’s (SSA) policies and procedures for
    monitoring representative payees and their responsibilities for the beneficiaries in
    their care.
•   Obtained a data extract of representative payees from the Representative Payee
    System as of May 2004 meeting our selection criteria (see Appendix B).
•   Selected a random sample of 275 representative payees nationwide. We are
    issuing a separate report on the nation-wide results, as well as separate reports for
    each of the 10 SSA Regions.1

Thirty-nine of the 275 representative payees were in the Chicago Region. For the
39 representative payees, we:

•   verified the identities of 39 representative payees and 49 beneficiaries they served;
•   interviewed 39 representative payees;
•   interviewed 49 beneficiaries;
•   visited and observed the living conditions of 49 beneficiaries; and
•   reviewed the Master Beneficiary Record, Supplemental Security Income Display
    System, Numident, Master Earnings File, Representative Payee System, and
    Prisoner Update Processing System records for each individual, to confirm personal
    information and identify discrepancies.

We performed our review in Illinois, Indiana, Michigan, Minnesota, Ohio, Wisconsin, and
the Office of Audit in Chicago, Illinois, from August to December 2004. We conducted
our review in accordance with the Quality Standards for Inspections issued by the
President’s Council on Integrity and Efficiency.


1
  SSA OIG, Nation-Wide Survey of Individual Representative Payees for the Social Security
Administration (A-13-05-25006), Individual Representative Payees for the Social Security Administration
in the Boston Region (A-01-05-15048), Individual Representative Payees for the Social Security
Administration in the New York Region (A-02-05-15049), Individual Representative Payees for the Social
Security Administration in the Philadelphia Region (A-14-05-15050), Individual Representative Payees for
the Social Security Administration in the Atlanta Region (A-13-05-15051), Individual Representative
Payees for the Social Security Administration in the Chicago Region (A-05-05-15052), Individual
Representative Payees for the Social Security Administration in the Dallas Region (A-06-05-15053),
Individual Representative Payees for the Social Security Administration in the Kansas City Region
(A-07-05-15054), Individual Representative Payees for the Social Security Administration in the Denver
Region (A-07-05-15055), Individual Representative Payees for the Social Security Administration in the
San Francisco Region (A-09-05-15056), and Individual Representative Payees for the Social Security
Administration in the Seattle Region (A-09-05-15057).
                                                                       Appendix B

Sampling Methodology
To identify the nation-wide population, we obtained a data extract from the Social
Security Administration’s (SSA) Representative Payee System of all individual
representative payees who had 14 or fewer beneficiaries in their care as of
May 20, 2004. This population was 5,380,635 representative payees who served
6,818,696 beneficiaries.

From this population we excluded representative payees who had any of the following
characteristics:

•   resided outside of the 48 contiguous States;
•   served as their own representative payee, as reflected in the Representative Payee
    System;
•   had only beneficiaries who were in non-current pay status;
•   had an invalid state code or military address; or
•   managed total funds of $50 or less each month.

This reduced the population to 4,306,779 representative payees with
5,520,303 beneficiaries. From this population, we randomly selected
275 representative payees from this sample population for review. We chose
25 additional representative payees to serve as replacements, as needed. Our sample
included 39 representative payees in the Chicago Region.

Of the original 44 sample cases, 4 were replaced and 1 was transferred from our
Region:

•   3 cases were replaced because the individuals no longer served as representative
    payees.
•   1 case was replaced because SSA records had not been updated to reflect the
    payee’s status change from an individual representative payee to an organizational
    representative payee. SSA alerted us of this situation, and steps were taken to
    correct the beneficiary’s record.
•   1 case was transferred to the Atlanta Region because the representative payee
    moved to North Carolina before our scheduled interview.

Accordingly, our review of the Chicago Region consisted of 39 representative payees.
Our findings in the Chicago Region will be included in a national report, where statistical
projections will be made.
                                                                       Appendix C

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Mark Bailey, Director, Central Audit Division (816) 936-5591

   Teresa S. Williams, Audit Manager (312) 353-0331


Acknowledgments

In addition to those named above:

   Lorrie Clement, Lead Auditor-in-Charge

   Elizabeth Juarez, Lead Auditor

   Anthony Lesniak, Auditor

   Sherman Doss, Auditor

   Kimberly Beauchamp, Writer-Editor

   Brennan Kraje, Statistician


For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 965-3218.
Refer to Common Identification Number A-05-05-15052.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
